       Fundamental Questions for the Future
             of the Postal Service




                             February 2, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-11-001
U.S. Postal Service Office of Inspector General                                                                 February 2, 2011
Fundamental Questions for the Future of the Postal Service                                                     RARC-WP-11-001


                                                 Table of Contents


Introduction ..................................................................................................................... 1 

Fundamental Questions .................................................................................................. 3 

       1.      What is the Nation’s Essential Need for the Postal Service in
               the 21st Century? ............................................................................................. 3 

       2.      Is a Profit-Driven Business or a National Infrastructure Best
               Suited to Carry Out the Postal Service’s Mission? .......................................... 5 

       3.      How Should the Nation’s Postal Service Be Financed? .................................. 7 

       4.      What Is the Proper Governance Model for the Postal
               Service? .......................................................................................................... 9 

       5.      What Does the Universal Service Obligation Mean? ..................................... 11 

       6.      Does Monopoly-Financed Universal Service Assist or Harm
               the Postal Service? ....................................................................................... 13 

       7.      Should the Postal Service Be Allowed to Expand into
               Nonpostal Services to Supplement Monopoly Shortfall? ............................... 15 

       8.      Should the Postal Service Have Additional Social
               Responsibilities beyond Its Core Mission? .................................................... 17 

Conclusion .................................................................................................................... 19 




                                                                 i
U.S. Postal Service Office of Inspector General                              February 2, 2011
Fundamental Questions for the Future of the Postal Service                  RARC-WP-11-001




 Fundamental Questions for the Future of the Postal Service


Introduction
The U.S. Postal Service is facing a set of critically important decisions. The combined
effects of the economic downturn, the disruptive consequences of electronic diversion,
and a burdensome and flawed retiree health care prefunding schedule have contributed
to $20 billion of losses in the past 4 years. The Postal Service expects that it will not
have enough cash to meet its payment obligations in 2011.

Less urgently, but of more importance in the long term, communications and parcel
delivery have undergone radical transformation in recent years, yet the Postal Service
has not modernized or been permitted to update important aspects of its mission to
reflect the impact of globalization and the digital age. Instead, the Postal Service has
been required to stand still in the middle of a revolution in the access and use of
information.

In this emerging environment, neither the Postal Service’s traditional functions nor
digital age infrastructures offer perfect solutions to Americans’ needs. Both information
services and physical delivery are important, and determining the right course for the
Postal Service’s next 10 or 20 years is difficult. Nevertheless, decisions about the Postal
Service’s future will be required very soon, and debates have yielded few definitive
conclusions.

We believe there is a need to step back from the immediate issues and take a deeper
look at unanswered foundational questions concerning the role of the Postal Service.
The answers to these questions can serve as beacons to navigate into the future. The
Postal Service faces an array of conflicting and even contradictory mandates. Without a
solid foundation to guide the transformation of the postal system, there is a risk of
further piecemeal changes that will simply add to the confusion.

This paper poses eight fundamental questions that we believe are critical for
determining the role of the Postal Service in the 21st century. We discuss some
alternatives for responding to these questions, but we purposefully do not suggest
answers. There are many possible answers. Policymakers, especially elected officials
representing Americans, should engage in a disciplined, deliberative process to reach
decisions about these foundational issues. The questions and some alternatives appear
in Table 1. Clear and decisive responses to these fundamental questions are needed to
develop a coherent, consistent postal policy for the present and the future. A failure to
reach agreement will frustrate efforts to find a long-term strategy for the Postal Service.
Any plan will lack the stability of consensus and fall prey to the same endless historical
debates.



                                                    1
U.S. Postal Service Office of Inspector General                                               February 2, 2011
Fundamental Questions for the Future of the Postal Service                                   RARC-WP-11-001

                             Table 1: Questions and Possible Alternatives

          Question                                           Possible Alternatives
1. What is the nation’s
                                                                              Mission Expanded to
   essential need for the            Mission Confined to Paper
                                                                          Accommodate Globalization and
   Postal Service in the                 Communications
                                                                                 the Digital Age
   21st century?
2. Is a profit-driven business
   or a national
   infrastructure best suited          National Infrastructure                    Profit-Driven Business
   to carry out the Postal
   Service’s mission?
3. How should the nation’s                                                                 Supported by
                                                                 Supported by
   Postal Service be                 Self-Financed                                        Universal Service
                                                                 Appropriations
   financed?                                                                                    Fund
                                  Government Entity
4. What is the proper                                                                    Privatized Company
                                    with Board of                 Government
   governance model for the                                                                  with Board of
                                   Governors and                  Department
   Postal Service?                                                                             Directors
                                     Regulator
5. What does the universal        No Explicit Definition of Service         Explicit Definition of Service
   service obligation mean?                  Obligation                               Obligation
6. Does monopoly-financed
   universal service assist or                 Assists                                   Harms
   harm the Postal Service?
7. Should the Postal Service
                                                              Expanded Services
   be allowed to expand into                                                             Expanded Services
                                   No Expansion of            but Only to Finance
   nonpostal services to                                                                   and Unfettered
                                      Services                 Unprofitable Post
   supplement monopoly                                                                      Competition
                                                                    Offices
   shortfall?
8. Should the Postal Service
                                    Incubation of
   have additional social                                      Support of Rural          Provision of Middle-
                                  New Transportation
   responsibilities beyond its                                     Areas                     Class Jobs
                                    Technologies
   core mission?


These questions cannot be answered in isolation. Each is best considered in
relationship to others. For example, an answer to whether the Postal Service should be
organized as a profit-maximizing business or a national infrastructure will be influenced
by decisions on the Postal Service’s universal service obligation, social responsibilities,
and optimal role in the digital age. In turn, the nature of the Postal Service’s mission will
influence its governance model, financing method, and placement in the competitive
marketplace. Finding a consensus among stakeholders and policymakers on the
answers to these questions will not be an easy process, but if agreement is reached on
the role of the Postal Service, developing a business model that will place the Postal
Service on a sustainable path to provide vital services to the American people in the
21st century will be possible.




                                                     2
U.S. Postal Service Office of Inspector General                                    February 2, 2011
Fundamental Questions for the Future of the Postal Service                        RARC-WP-11-001



Fundamental Questions

1.        What is the Nation’s Essential Need for the Postal Service in the
          21st Century?

What national infrastructure will the nation and its citizens need for communications and
parcel delivery in the future? Determining the scope of the Postal Service’s mission in
the 21st century is crucial for answering the other fundamental questions. Should the
Postal Service’s mission remain confined to paper communications and parcels or
should it update its mission to address the needs and shortcomings of globalization and
the digital age — to bind the nation together in the 21st century as it has done in earlier
centuries?

By statute, the Postal Service has “as its basic function the obligation to provide postal
services to bind the Nation together through the personal, educational, literary, and
business correspondence of the people.”1 As the way we communicate is transformed,
how should binding the nation together be interpreted? Is the Postal Service’s traditional
mission adequate given the changing nature of communications? Or should the Postal
Service’s role be to span the digital divide by offering services that facilitate private,
confidential, and secure forms of communication as well as a safe and dependable
economic platform? Such services could include
          Providing a safety net for those who have been or are about to be left behind as
           the digital revolution progresses;
          Addressing the shortcomings and unintended consequences of globalization and
           the digital age;
          Facilitating the symbiotic relationship between physical and digital
           communications and addresses;
          Addressing the emerging confidentiality and privacy problems of digital
           communications and information storage, and
          Providing a secure platform for financial transactions not currently possible on
           the Internet.
For example, the Postal Service already offers money orders as a safe and dependable
alternative for the unbanked and those who cannot qualify for a credit card. Should it
also offer the sale and redemption of digital currency instruments to assist the rapidly
expanding number of people who receive their salary or benefits on cash cards and are
subject to exploitation because of predatory fees and limited cashing locations?

Throughout its history the U.S. Post Office’s mission has changed in response to
changing circumstances. At the founding of the United States, it was sufficient to
transport mail from town to town. Delivery to individual households emerged much later
as an important postal function — first in cities and then in rural areas. Rural delivery

1
    39 U.S.C. § 101(a).


                                                    3
U.S. Postal Service Office of Inspector General                                                         February 2, 2011
Fundamental Questions for the Future of the Postal Service                                             RARC-WP-11-001


freed farmers and other country residents from having to drive to town for news and
correspondence. Parcel Post was initiated because rural areas needed more
reasonably-priced access to the delivery of goods. When the telephone made same-day
delivery of business correspondence less important, the number of daily business
deliveries was reduced. Now, however, the Postal Service faces constraints on its ability
to change.

The Postal Accountability and Enhancement Act provided a definition of postal services
limited to the delivery of mail and packages and related services.2 Halting modernization
by freezing a program in time like an insect encased in amber represents an
unprecedented ban for any government department or corporation. There are regular
calls to modernize the federal government, but the Postal Service is forbidden from
updating much of its mission. Should the definition of postal services remain static or is
there a need to reimagine it?




2
 “‘[P]ostal service’ refers to the delivery of letters, printed matter, or mailable packages, including acceptance,
collection, sorting, transportation, or other functions ancillary thereto” 39 U.S.C. § 102(5).


                                                            4
U.S. Postal Service Office of Inspector General                                  February 2, 2011
Fundamental Questions for the Future of the Postal Service                      RARC-WP-11-001


2.    Is a Profit-Driven Business or a National Infrastructure Best Suited to
      Carry Out the Postal Service’s Mission?

What’s the best structure for the Postal Service — a business that generates profits and
forges alliances as needed with useful partners and customers or a national public
infrastructure mandated to provide neutral services for users? Ultimately, the question
of business or national infrastructure depends on the nation’s purpose for the Postal
Service. Will the Postal Service carry out its 21st century mission more effectively if its
first responsibility is to maximize profits? Or is it better that the Postal Service see its
first responsibility as serving the nation by maintaining the infrastructure that facilitates
the nation’s communications and commerce without any bias toward preferred
customers?

Businesses can be extremely creative to ensure their survival, capable of jettisoning
failing product lines and transforming their entire operations around new areas of
opportunity. This innovation can bring great benefits, but a business is also focused on
the bottom line and naturally puts its own self-interest above the common good. It may
decide that, in a period of declining mail volume, it cannot afford to deliver as frequently
as it does currently or that it should deliver only to lucrative locations and limit service to
poor and remote areas. It may even move out of mail delivery into other business areas.
If the Postal Service is a business, setting out explicit requirements for the level of
universal service the Postal Service must provide would be important to ensure
adequate service.

A business will form strategic alliances with major customers while perhaps providing
less attention to regular citizens who generate less profit. It may provide privileged
access to some customers based on their size and will not necessarily offer neutral
treatment to all traffic. It will be more concerned about the interests of senders who pay
than in the interests of recipients.

A business will also not maintain facilities, plants, and services beyond those needed to
carry out its optimal operations unless required. What happens to these network
resources if a business-oriented Postal Service determines that although they may be
needed for the nation’s infrastructure, they do not generate enough return to pay for
themselves? Should maintaining these cost centers be a requirement of the universal
service obligation? Should the government subsidize them to cover losses in an age
when monopoly revenues no longer cover costs? Policymakers through history have
believed that a certain level of infrastructure should be maintained regardless of
profitability in order to bind the nation and bridge divisive gaps such as differences in
income, age, and geography.

If the Postal Service is focused primarily on maintaining and updating a public
infrastructure, it may have fewer incentives toward innovation than a profit-oriented
business. Instead, it will concentrate on maintaining its network and providing access to
all customers regardless of size. It will remedy gaps and fill holes in existing service
systems to ensure the broadest access possible. Universal service obligations would be
better protected, but ensuring an effective level of innovation would be an increased


                                                    5
U.S. Postal Service Office of Inspector General                           February 2, 2011
Fundamental Questions for the Future of the Postal Service               RARC-WP-11-001


concern. Both policymakers and Postal Service leadership would likely want to
encourage regular reassessments of the infrastructure needed to respond to the
nation’s demographic changes and other needs, particularly in a period of technological
transformation.

A decision on whether the Postal Service is a business or an infrastructure is at the
foundation of deciding how the Postal Service should be financed and governed. It also
sets the stage for determining the Postal Service’s responsibilities to its customers,
relation to competitors, and obligations to society.




                                                    6
U.S. Postal Service Office of Inspector General                                                    February 2, 2011
Fundamental Questions for the Future of the Postal Service                                        RARC-WP-11-001


3.       How Should the Nation’s Postal Service Be Financed?

Today, monopoly revenue no longer sustains the postal system. Who should pay for the
collection, processing, and delivery of mail, the nation’s address system, the
management of delivery points, and other postal costs? Self-sustainability was a
principle of the Postal Reorganization Act of 1970, and until recently, the Postal Service
was able to support itself with the revenue from its operations.3 While efficiencies and
optimization could help improve the Postal Service’s financial sustainability, the
question of whether self-funding should be an important principle remains. Should the
policy goal be for the Postal Service to remain essentially self-financed even if it means
price increases or service reductions? Or should the government pay for the national
infrastructure aspects of the Postal Service such as delivering mail in unprofitable areas
or maintaining the national address system? Other options include
         Providing limited taxpayer support solely for specific universal service activities;
         Requiring delivery companies that do not otherwise provide universal service to
          contribute to a universal service fund as a condition of business, or
         Creating a universal service fund through public user fees as in the
          telecommunications industry.

If policymakers decide that the Postal Service should continue to be funded solely by
revenue from mailers, then a business model, network structure, and pricing policy can
be chosen to meet that goal. The Postal Service has substantial fixed costs. If it is
determined that the Postal Service should support itself and mail volume continues to
decline, the Postal Service will likely have to increase prices above inflation, expand into
other business areas, or reduce service in a way that cuts fixed costs.4

If policymakers instead require the Postal Service to offer a level of service that cannot
be supported by postal revenue, they should determine how and to what degree to
compensate the Postal Service either through appropriations or from a universal service
fund financed by other delivery companies or public fees. Taxpayer support is not
unprecedented. The Post Office Department had a significant percentage of its
operating expenses funded by taxpayers for most of its long history. As late as 1971,
more than 25 percent of postal expenses were funded by appropriations. Support could
be directed to funding universal service activities such as
         Providing safety net access to particularly inaccessible or unprofitable areas;
         Keeping open Post Offices that do not bring in enough revenue to cover their
          costs but are needed to assure reasonable access;

3
  In fact, the Postal Service even contributed to the U.S. Treasury through excessive pension contributions that have
been partially returned. Policymakers could reasonably decide that the Postal Service should make some contribution
to its owner beyond funding its own operations. Such a decision, however, should be made explicitly rather than
through mandated overpayments for federal benefits.
4
  For an analysis of the implications of fixed costs on the Postal Service, see the study by George Mason University
School of Public Policy published by the U.S. Postal Service Office of Inspector General, Implications of Declining
Mail Volumes for the Financial Sustainability of the Postal Service, Report No. RARC-WP-10-006,
September 29, 2010, http://www.uspsoig.gov/foia_files/RARC-WP-10-006.pdf.


                                                         7
U.S. Postal Service Office of Inspector General                               February 2, 2011
Fundamental Questions for the Future of the Postal Service                   RARC-WP-11-001


       Offering public infrastructure services like address and delivery point
        management;
       Forging links between the government and its citizens through counter services,
        call centers, and e-government Internet portals, and
       Providing services to the lengthening tail of those who are being left behind as
        globalization and the digital revolution progress.
The federal government should also take responsibility for constraints that hamper the
Postal Service’s ability to operate efficiently such as pressure to keep unneeded Post
Offices and mail processing facilities open. Whenever Congressional action equated to
increased costs, appropriations could be required as with other government programs.

Unless a specific determination is made about how the Postal Service should be
funded, there is a danger that the Postal Service’s current cost and regulatory structure
will cause it to drift from self-sustainability into a situation in which either government
support or collapse is inevitable. If the Postal Service continues to lose money, there
may be pressure for Congress to raise the debt limit continually. Ultimately, the Postal
Service could amass a debt to the federal government that it would not be able to pay
back. The Postal Service’s financial situation and accumulated debt require a timely
policy decision on this question.




                                                    8
U.S. Postal Service Office of Inspector General                                                 February 2, 2011
Fundamental Questions for the Future of the Postal Service                                     RARC-WP-11-001


4.    What Is the Proper Governance Model for the Postal Service?

What type of governance structure is appropriate for the Postal Service? The question
of whether the Postal Service should be a business or an infrastructure will greatly
influence its governance model. If the Postal Service is a business, a corporate board
structure might be a preferred model. For a national infrastructure, maintaining
governmental accountability and a level playing field for customers is essential. In this
case, a governmental model like the current structure or that of a government
department might be preferable.

The Postal Service’s current governance model has often contained contradictions. The
Postal Service is a government corporation with a mandate and mission to provide
universal services financed by a monopoly including the nation’s address and delivery
point management systems. Like a private sector corporation, it has a Board, yet the
Board of Governors is not charged to represent shareholders interested in the Postal
Service’s profitability. Instead, the Governors “represent the public interest generally.”5
In fact, the Postal Service has no residual claimants like shareholders to benefit from
profitability, so there is little incentive for the Postal Service to seek profitability at the
expense of its mission. Yet, like a private sector utility, the Postal Service also has a
regulator, the Postal Regulatory Commission (PRC), to protect customers and
competitors. The authority of the PRC is limited solely to the Postal Service and does
not include other participants in the delivery market. Most regulators regulate an entire
industry.6 In addition, the Postal Service is accountable to Congress and, like a typical
federal agency, has an Inspector General, and is subject to review by the Government
Accountability Office. Without bright lines between the respective roles, there is
overlapping oversight that ultimately creates drag on efficiency and makes the Postal
Service vulnerable to contradictory mandates from overseers.

There are many possible ways to structure the Postal Service. In a report on its future
business model,7 the Postal Service suggested five options:
     (1) Keeping its current structure but adding more autonomy and flexibility to control
         costs and raise revenues such as the ability to offer new nonpostal products;
     (2) Becoming a government agency supported by appropriations;
     (3) Becoming a government-owned delivery network — mail processing and
         transportation would be privatized, although retail could be retained;
     (4) Staying government-owned but liberalizing to act much more like a business, and
     (5) Becoming privatized.



5
  39 U.S.C. § 202(a)(1).
6
  The phenomenon of a government agency assigned to provide some form of oversight or advice to another
government agency is not unusual, but the Postal Regulatory Commission is the only federal agency assigned solely
to regulate another federal establishment.
7
  U.S. Postal Service, Assessment of U.S. Postal Service Future Business Model, November 2009,
http://www.usps.com/postallaw/_pdf/USPS_FutureBusinessModelPaperForGAO_Final.pdf, pp. 30-6.


                                                        9
U.S. Postal Service Office of Inspector General                                                       February 2, 2011
Fundamental Questions for the Future of the Postal Service                                           RARC-WP-11-001


Each of these structures would require a different form of oversight and would affect
decisions on the extent of the universal service obligation, the level of the monopoly, the
ways prices are set and workers are hired, and the dominant way of relating to
customers — advantageous alliances with economically powerful customers or a focus
on unbiased and equal services to all users.

The migration towards privatization and liberalization has become common in other
countries, although the enthusiasm for liberalization has cooled in the aftermath of the
recession.8 It is uncertain how much public appetite for privatization exists in the United
States. If the Postal Service were privatized, the Board of Governors would act more in
the manner of a corporate-style board of directors selected to maximize shareholder
profit and focused on the well-being of the Postal Service institution rather than
maximizing services to citizens. Private sector labor law might apply with strikes and
lockouts permitted. Managers would face new demands to ensure profitability. For an
organization oriented towards public service, the cultural change could be dramatic. It
would also be hard to reverse. Once a privatized company eliminated certain
infrastructure, bringing it back would be difficult and costly.

As an appropriations-supported federal agency, the Postal Service would likely be
managed under the executive branch and overseen by a Congress restrained by the
limits of appropriations. For federal agencies, there are checks and balances between
White House leadership and Congressional oversight. In the Postal Service’s present
operations, the White House does not play the traditional role of balancing
Congressional actions. How would executive support and oversight change? Would a
regulator be needed any longer, since it is the role of government to care for its
citizens? In such a structure, the Postal Service might lose some of the unique
exemptions from federal rules that allow it to operate in a more businesslike manner
such as the ability to contract outside of the federal procurement process. Postal unions
might lose their unique bargaining rights.

If the Postal Service were liberalized and given more freedom to act like a business, the
oversight structure would be altered. The Postal Service would likely be permitted to
expand into new business areas, but some of the Postal Service’s monopoly privileges
might be reduced.




8
 Privatization refers to the ownership of the post. Liberalization refers to how much competition is permitted for postal
activities.


                                                           10
U.S. Postal Service Office of Inspector General                                                    February 2, 2011
Fundamental Questions for the Future of the Postal Service                                        RARC-WP-11-001


5.    What Does the Universal Service Obligation Mean?

What are the requirements of the universal service obligation? Another way to ask this
question is: What is the basic level of service policymakers will accept for citizens? One
of the reasons commonly provided to support the existence of the postal monopoly is to
fund universal service, but monopoly revenues are now unable to pay for the postal
network. If the Postal Service is not capable of sustaining what policymakers consider a
minimum necessary level of service through its business model, then service and
access levels need to be re-examined and additional sources of revenue devised.

The Postal Service’s universal service obligation has traditionally been expressed only
in general terms.9 It is usually understood to include the collection and delivery of mail
across the country at a reasonable price, retail service in rural and other unprofitable
areas, and services such as address management. There are advantages to not
shackling the Postal Service with specific requirements. It makes it easier to adjust the
level of service in response to changing conditions.10 Yet, without knowing the minimum
level of service that is acceptable, it is difficult to determine under what circumstances
intervention would be necessary. For example, delivery to the door is customary in
many places, but it is not universal and may come to be viewed as a premium form of
delivery service since cluster boxes are increasingly common. Explicitly determining the
minimum required level of service helps set a lower bound to the size of the Postal
Service. It also helps determine at what point government financing or operational
changes are needed to maintain service levels.

Of course, the level of service the Postal Service provides is also a business decision.
The Postal Service might have commercial reasons for maintaining higher levels of
service, even beyond what policymakers would consider adequate, as greater service
levels enhance the value of the delivery network to mailers. In certain circumstances,
additional service in some areas might pay for itself or subsidize less lucrative delivery
routes.

The ultimate definition of universal service, however, is a question to be determined by
Congress. The Postal Service’s universal service obligation is not only a matter of
postal policy; it is also a matter of national policy. The Postal Service is often the most
visible face of the federal government throughout the country, and the nation has a
strong interest in the definition of universal service. Congress is in the best position to
decide how to pay for universal service by making the necessary policy tradeoffs
between the postal price level, the level of governmental support, and the required level
of service. Policymakers might have a range of opinions about the appropriate minimum
level of service. Some might view a Postal Service guarantee of once-a-week delivery
to every household as adequate. Others might consider any drop from 6-day delivery to
be too much. Any guaranteed level of service beyond what an optimized Postal Service

9
  One of the more specific requirements appears in annual appropriations riders that mandate the Postal Service
maintain 6-day delivery and rural delivery at the levels it provided in 1983. These riders also state that the Postal
Service cannot use appropriated funds to close small Post Offices.
10
   For a discussion of this issue, see U.S. Postal Regulatory Commission, Report on Universal Postal Service and the
Postal Monopoly, December 19, 2008, http://www.prc.gov/Docs/61/61628/USO%20Report.pdf, p. 18.


                                                         11
U.S. Postal Service Office of Inspector General                            February 2, 2011
Fundamental Questions for the Future of the Postal Service                RARC-WP-11-001


could afford would need to be financed by increased prices, cost cutting, taxpayer
funds, or another funding method.

Without definitive guidance on the meaning of universal service, the Postal Service
cannot determine its minimum required cost structure. Mailers may be required to pay
more in rates than necessary, and taxpayers may be required to make unnecessary
contributions.




                                                    12
U.S. Postal Service Office of Inspector General                                                  February 2, 2011
Fundamental Questions for the Future of the Postal Service                                      RARC-WP-11-001


6.    Does Monopoly-Financed Universal Service Assist or Harm the
      Postal Service?

Do the benefits of monopoly funding for universal service outweigh its costs? The Postal
Service’s monopoly includes two parts: the letter monopoly and the mailbox monopoly.
The letter monopoly prevents anyone but the Postal Service from carrying a letter that
weighs less than 12.5 ounces or costs less than six times the price of the First-Class
stamp outside the mail.11 The mailbox monopoly forbids anyone including other delivery
services from using the mailbox. In return, the Postal Service provides universal service
throughout the country. Are both parts of the monopoly still necessary to preserve the
Postal Service’s financial viability and ensure that postal services are available to all?

The Postal Service is subject to price regulation in order to protect monopoly customers
from excessive prices and to defend competitors from a Postal Service that could
unfairly cross-subsidize its competitive products with monopoly revenues. While the
monopoly has no doubt prevented the Postal Service from losing some revenue, does
the revenue preserved outweigh the costs of this regulation? The PRC estimated the
value of the combined letter and mailbox monopoly to be approximately $2 billion in
fiscal year (FY) 2009.12 Universal service, the price cap, and disproportionate payments
to the federal government for retiree benefits cost the Postal Service significantly more.

One could even argue how effective the monopoly is at protecting the Postal Service
from competition. Competitors such as express delivery firms emerged despite the
monopoly. Alternate delivery services operate in many cities by leaving advertisements
near the doorstep or hanging on doors instead of in the mailbox. (Of course, it is
possible these services would be much more successful if there was no mailbox
monopoly.) And the monopoly cannot protect the Postal Service from its greatest
current threat — digital alternatives to the mail.

Supporters of the legal monopoly argue that private sector competitors may
“creamskim” the most profitable Postal Service routes leaving remote or unprofitable
areas without service. But the liberalization of monopoly protections in Europe has not
resulted in significant competition for the delivery of addressed mail (in contrast to
unaddressed flyers and leaflets). Delivery competition is particularly weak when the
incumbent post offers direct access to its delivery network as the Postal Service does
through worksharing. Delivery is difficult and expensive work, and the largest provider
receives benefits from substantial economies of density due to the volume of mail it
delivers. A legal monopoly may not be necessary or sufficient to protect the Postal
Service and fund universal service. Instead, taxpayer financing of specific universal
service activities or a universal service fund may be a preferable method of funding
uneconomic postal services. Users of the postal system could pay a universal service
fee that would subsidize postal services in poor and remote areas on the model of the

11
   18 U.S.C. § 1696 and 39 U.S.C. § 601.
12
   U.S. Postal Regulatory Commission, Annual Report to the President and Congress, December 2010,
http://www.prc.gov/Docs/71/71322/PRC_AR_2010_highres_1558.pdf, p. 31. The value of the monopoly has fallen by
more than $1 billion from the PRC’s estimate for FY 2007 because of the decline in volume and higher fixed network
costs.


                                                        13
U.S. Postal Service Office of Inspector General                             February 2, 2011
Fundamental Questions for the Future of the Postal Service                 RARC-WP-11-001


telephone network. Alternatively, delivery companies that did not provide universal
service could either support the postal network by paying the Postal Service for last mile
delivery or bypass the postal network but contribute to a universal service fund that
would subsidize postal services.




                                                    14
U.S. Postal Service Office of Inspector General                                                    February 2, 2011
Fundamental Questions for the Future of the Postal Service                                        RARC-WP-11-001


7.       Should the Postal Service Be Allowed to Expand into Nonpostal Services to
         Supplement Monopoly Shortfall?

The monopoly does not generate enough money to pay for the postal system.
Additionally, Congress has expressed an interest in maintaining the current level of Post
Offices even though many lose money. As a result, an additional income stream is
needed. Could revenue from nonpostal services bridge the gap? The Postal Service
has argued in its recent plan for improving its future viability that it should have more
flexibility to offer new products consistent with its mission, and the Postal Service’s
consultant Accenture found that international posts that have diversified business units
tend to outperform their peers.13 Yet, as the GAO has pointed out, the Postal Service’s
ventures into new business areas have not always been successful.14 Of course, early
failures are a hallmark of innovation. The risk of failure can be successfully managed,
but a cultural change may be needed. The Postal Service’s business practices and
operations are focused on delivering the mail. Adapting to new roles may require a
change in focus.

Offering nonpostal services would bring the Postal Service into competition with private
sector businesses. The Postal Service already competes directly in the parcel and
express markets. It also offers money orders in competition with banks, wire transfer
companies, and retailers. In addition, the Postal Service is an indirect competitor in
other markets like advertising where direct mail competes with newspapers, television,
the Internet, and other media. Should the Postal Service seek out new areas of
opportunity even if it means entering into competition with additional businesses? And
how should this new competition between the Postal Service and the private sector be
conducted? Policymakers may have different views on how much the Postal Service
should be permitted to expand its services to supplement the monopoly:

         The Postal Service should stick to its current offerings. The Postal Service should
          not seek to enter any new business areas where it would compete with private
          sector firms. Instead, it should embrace “coopetition,” working with its
          competitors, for example, by serving as the last-mile provider for other delivery
          firms. Everyone reaps the environmental, safety, and economic benefits of
          having a single truck drive through neighborhoods rather than several.

         The Postal Service should expand into new businesses but selectively, for
          example, by only providing non-postal services in support of money-losing post
          offices. Offering additional services such as the sale and redemption of digital
          currency instruments for the unbanked and underbanked could help transform
          Post Offices from cost centers to profit centers.


13
   U.S. Postal Service, Ensuring a Viable Postal Service for America: An Action Plan for the Future, March 2, 2010,
http://www.usps.com/strategicplanning/_pdf/ActionPlanfortheFuture_March2010.pdf, p. 14, and Accenture, Is
Diversification the Answer to Mail Woes? The Experience of International Posts,
http://www.usps.com/strategicplanning/_pdf/Accenture_Presentation.pdf, February 2010.
14
   U.S. Government Accountability Office, U.S. Postal Service Strategies and Options to Facilitate Progress toward
Financial Viability, http://www.gao.gov/new.items/d10455.pdf, pp. 42-3.


                                                         15
U.S. Postal Service Office of Inspector General                              February 2, 2011
Fundamental Questions for the Future of the Postal Service                  RARC-WP-11-001


       The Postal Service should aggressively enter new business areas and engage in
        unfettered competition with private sector firms including its parcel competitors,
        competitors in the mail preparation industry, and potential competitors in other
        business areas. The Postal Service should act like some corporatized and
        privatized posts in other countries, seeking profitable business advantage
        wherever it can.

The answer will differ greatly depending on whether policymakers believe the Postal
Service should be a national public infrastructure run by the government or a privatized
business.




                                                    16
U.S. Postal Service Office of Inspector General                                                     February 2, 2011
Fundamental Questions for the Future of the Postal Service                                         RARC-WP-11-001


8.    Should the Postal Service Have Additional Social Responsibilities beyond Its
      Core Mission?

Throughout its history, the Postal Service has provided societal benefits beyond mail
delivery. What are the Postal Service’s responsibilities to society in areas beyond its
traditional functions?

In the United States, mail has fostered the growth of transportation networks and the
adoption of new technologies. In the early 1800s, mail helped subsidize the extension of
stage coach lines throughout the country before moving to rail networks. Rural delivery
promoted the paving of roads in rural areas, and the Post Office played an instrumental
role in supporting the infant passenger air industry in the early 20th century. Today, the
Postal Service is considering transitioning to electric vehicles, a change that could
transform U.S. transportation technology. Should promoting new technologies to the
benefit of the nation be a Postal Service obligation?

Even today, the Postal Service is an important link connecting far-flung areas to the rest
of the nation. In parts of Alaska, mail is the primary means used to transport groceries,
merchandise, and many other necessities. In some rural communities, Post Offices are
the focal point of the town and the last remaining business. They provide a place for
residents to connect to one another, but they may not be needed to provide universal
postal service. Should the Postal Service be responsible for continuing to finance these
ties?

The Postal Service has a proud history of offering its employees a stepping stone to the
middle class for workers without college degrees and a tradition of promoting from
within. Many of the Postal Service’s senior officers started as front-line postal workers.
The Postal Service’s success as a middle-class employer is rooted in the collective
bargaining framework established in law. Among federal employees, Postal Service
workers have unique rights to bargain collectively for wages, and if no agreement is
reached through negotiations, the parties must go to mandatory binding arbitration.15 In
the private sector, both parties usually must agree to submit to binding arbitration. The
Postal Service is also required by law to set compensation and benefits at levels
comparable to the private sector and to participate in certain federal benefit programs
such as the federal pension system.16 Bargaining is therefore primarily over wage levels
and work rules. When bargaining over benefits has occurred, the result has been
benefit levels more generous than the rest of the federal government as in the case of
health insurance.

If mail volume continues to decline, the Postal Service’s labor practices may come into
conflict with its financial viability. Compensation levels may have to become more
market based, and workplace practices more flexible and better adjusted to the ebb and
flow of the mail business. Recent Office of Inspector General reports found that parcel
15
  Postal Service employees are not permitted to strike.
16
  39 U.S.C. § 1003(a) states in part “It shall be the policy of the Postal Service to maintain compensation and
benefits for all officers and employees on a standard of comparability to the compensation and benefits paid for
comparable levels of work in the private sector of the economy.”


                                                          17
U.S. Postal Service Office of Inspector General                                                February 2, 2011
Fundamental Questions for the Future of the Postal Service                                    RARC-WP-11-001


companies and presort bureaus use far more flexible staffing practices than the Postal
Service.17

Should the Postal Service’s relationship with its workforce be like that of any other
employer or does the Postal Service, as a federal employer with a large craft workforce,
have special obligations towards its employees? Any effort to rethink the Postal
Service’s role without considering its collective bargaining framework will likely haunt
the Postal Service as it attempts to optimize the efficiency of its infrastructure, yet such
rethinking must be carefully considered. Throughout the U.S. economy, well-paid, full-
time blue collar positions with generous benefits are disappearing. To what degree are
policymakers prepared to see these types of positions disappear from the Postal
Service and the nation? Alternatively, to what degree can a self-sustaining postal
system with shrinking volume afford to fund social benefits not essential to its mission?




17
  U.S. Postal Service Office of Inspector General, Management Advisory Report – Benchmarking Postal Service
Parcel Productivity, Report No. EN-MA-09-002, March 31, 2009, http://www.uspsoig.gov/foia_files/EN-MA-09-002.pdf
and Management Advisory Report – Benchmarking Best Practices with Presort Bureaus, Report No. EN-MA-10-004,
June 7, 2010, http://www.uspsoig.gov/foia_files/EN-MA-10-004.pdf.


                                                       18
U.S. Postal Service Office of Inspector General                                   February 2, 2011
Fundamental Questions for the Future of the Postal Service                       RARC-WP-11-001



Conclusion
We believe the eight questions described in this paper are fundamental for determining
the role of the Postal Service in the future. If the Postal Service were created today, its
mandate would contain direct answers to these questions. Each question can help
guide policymakers in designing the structure of the Postal Service and directing its
future operations, but the answers should be considered together as part of a consistent
framework. For example, a policymaker may want the Postal Service to remain self-
sustaining and provide excellent wages and benefits while maintaining a very high level
of service at a low price. Such an outcome may not be possible. By assigning priorities,
it is possible to structure the Postal Service to achieve the most important goals.

A consensus on the answers to these fundamental questions could provide a stable
foundation for the Postal Service’s future that will allow the Postal Service to respond
with greater agility to the problems it faces. The Postal Service has an array of vocal
stakeholders with narrow or conflicting interests and views of the Postal Service’s role.
In addition, it has many important stakeholders with less of a voice such as recipients,
small mailers, and the digital community. Without broad agreement on foundational
principles, efforts to find a long-term strategy for the Postal Service could be mired in
endless and repetitive debate. The Post Office has been a part of the nation since its
founding. Its role has been reinterpreted many times. Critical shortcomings of
globalization and the digital age risk disadvantaging Americans in the 21st century:
       Digital communications lack the level of privacy, confidentiality, and security
        desired by citizens and are vulnerable to disruption;
       Digital companies refuse to be held to standards of accountability when problems
        occur and may seek to privilege one type of communication over another;
       There is a lengthening tail of digital refugees, which will only increase as the
        digital revolution progresses, and
       Ultimately, digital communication is not sufficient; physical delivery is still
        essential for some items.
These forces may divide rather than bind the nation together. Careful thinking about the
Postal Service’s role now could help bridge these divides while preserving the Postal
Service for the future.




                                                    19
